                                             NATIONAL SCIENCE FOUNDATION
                                             OFFICE OF INSPECTOR GENERAL
      0                                         OFFICE OF INVESTIGATIONS


Ill                            CLOSEOUT MEMORANDUM


                                                                          11        Page 1of 1



          I n March, a Program Manager informed us a P I had listed manuscripts i n his
          proposal1 as submitted to named journals when they were not. We reviewed the
          proposal and noted the proposal listed submitted manuscripts i n several places: one
          in the Project Description, which was repeated i n the PI'S and co-PI'S Biographical
          Sketches (they were co-authors on this m a n u ~ c r i p t ) .The
                                                                        ~ PI'S Biographical Sketch
          also listed a second manuscript3 as submitted to a named journal.
          We wrote to the PI and co-PI and asked them to provide a n explanation and proof
          the two manuscripts had been submitted to the indicated journals at the time the
          proposal was submitted. The co-PI responded she was unaware of the manuscript's
          status a t the time of submission, and the PI was responsible for listing it i n her
          Biographical Sketch. The P I admitted he wrote the proposal, including both
          Biographical Sketches, and denoted the manuscripts a s submitted i n the proposal
          and Biographical Sketches. He took full responsibility, stating neither the co-PI,
          nor anyone at the submitting university knew of this. The PI acknowledged the
          manuscripts were not submitted to the named journals when the proposal was
          submitted to NSF; however, they had been previously submitted to other journals.
          He said they were rejected from the other journals, and he planned to submit them
          to the journals named in the proposal before the proposal submission, but did not do
          t h a t i n time. He said he had since submitted them to the named journals. He
          provided documents to support most of his assertions.
          The PI h a s admitted he inappropriately listed the manuscripts i n his proposal
          submission to NSF. However, rather t h a n not existing, these manuscripts had been
          previously submitted to different journals. We sent the PI a warning letter
          reminding him all the information i n his proposal should be accurate. Accordingly,
          this case is closed.
